Office of Material Loss Reviews
Report No. MLR-10-035


Material Loss Review of United Security
Bank, Sparta, Georgia




                                    May 2010
                                     Executive Summary

                                     Material Loss Review of United Security Bank,
                                     Sparta, Georgia
                                                                                     Report No. MLR-10-035
                                                                                                  May 2010

Why We Did The Audit
On November 6, 2009, the Georgia Department of Banking and Finance (DBF) closed United Security
Bank (United Security) and named the FDIC as receiver. On November 20, 2009, the FDIC notified the
Office of Inspector General (OIG) that United Security's total assets at closing were $153.7 million and
the estimated loss to the Deposit Insurance Fund (DIF) was $57.3 million. As of May 14, 2010, the
estimated loss to the DIF had increased to $64.9 million. As required by section 38(k) of the Federal
Deposit Insurance (FDI) Act, the OIG conducted a material loss review.

The audit objectives were to (1) determine the causes of United Security’s failure and the resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background
United Security was a state-chartered nonmember bank that was established on September 12, 1932. The
bank was a full-service community bank headquartered in Sparta, Georgia, a small rural town located
105 miles east of Atlanta in central Georgia and the only incorporated municipality in Hancock County.
Faced with declining loan demand in the Sparta market, the bank decided to expand and opened a branch
office in Woodstock, Georgia (Woodstock branch) in July 2002 to serve Cherokee, Cobb, and Fulton
counties, which are part of the Atlanta metropolitan area. The Woodstock branch operated under the
trade name, The Bank of Woodstock, a Division of United Security Bank. After the addition of the
Woodstock branch, the bank’s lending focused on commercial real estate (CRE), specifically, acquisition,
development, and construction (ADC), including out-of-state loan participations.


Audit Results
Causes of Failure and Material Loss

United Security failed because of loan concentrations in CRE, particularly ADC, that were a result of the
Board and management’s decision to expand its operations outside the rural community of Sparta into the
Atlanta metropolitan area. The Board and management, largely dominated by one individual, pursued a
growth strategy without establishing a sound internal control system to support this strategy. Although
initially profitable, United Security’s ADC concentrations, absent adequate underwriting and credit
administration practices, created risks the bank was ill-equipped to manage. Further, the bank’s ADC
concentrations and inadequate underwriting and credit administration practices materially increased the
bank’s vulnerability to losses when the real estate market significantly declined in the Atlanta
metropolitan area. DBF closed United Security after determining the bank was not viable due to
deteriorating asset quality, poor earnings, and eroding capital.

The FDIC’s Supervision of United Security

Our review focused on FDIC and DBF supervisory oversight of United Security between 2004 and 2009.
The FDIC and the DBF conducted timely and regular examinations of United Security and monitored its
condition through the use of offsite monitoring mechanisms. Through its supervisory efforts, the FDIC
and the DBF identified risks in United Security’s operations and brought these to the attention of the


                                 To view the full report, go to www.fdicig.gov
                                      Material Loss Review of United Security Bank,
   Executive Summary                  Sparta, Georgia

                                                                                     Report No. MLR-10-035
                                                                                                  May 2010

bank’s Board and management through examination reports and other correspondence. Such risks
included the bank’s significant concentrations in CRE and ADC loans and poor Board and management
oversight of key banking functions. Enforcement actions were taken in 2006 and 2008; however, United
Security’s actions in response to the 2008 enforcement action were inadequate and the financial condition
of the bank became critically deficient.

In hindsight, United Security’s expansion into the Atlanta metropolitan area, which altered the bank’s risk
profile, and the presence of a dominant official should have elevated supervisory concerns about the
sufficiency of the bank’s internal control system beginning as early as 2002. Further, the pursuit of an
enforcement action in 2007 may have been appropriate, given examiners’ continued concerns about
management and the significant deterioration in asset quality since the prior examination. We recognize
that decisions regarding enforcement actions involve judgment based on information known at the time.
In this case, the FDIC did consider taking an enforcement action but concluded that an action was not
necessary based on written commitments from the Board to address deficiencies, the bank’s overall
satisfactory regulatory history, its satisfactory financial performance over an extended period of time, and
an expected capital infusion. Further, FDIC officials stated that the depth of the economic downturn that
was a factor in the rapid deterioration of United Security’s loan portfolio was not evident at the time of
the 2007 examination. However, in our view, the FDIC should have been more skeptical of the Board
and management’s ability to adequately address the deficiencies because, prior to 2002, the bank had
been operating in a vastly different market.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. United Security was unsuccessful in raising needed
capital and the bank was subsequently closed on November 6, 2009.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On May 18, 2010, the Director, Division
of Supervision and Consumer Protection (DSC), provided a written response to the draft report. DSC
reiterated the OIG’s conclusions regarding the causes of United Security’s failure. With regard to our
assessment of the FDIC’s supervision of United Security, DSC reiterated the bank’s supervisory history
described in our report. In addition, DSC’s response outlined the supervisory actions taken to address the
risks that examiners identified during that period, including component and composite rating downgrades
and the enforcement actions taken in 2006 and 2008 to compel the bank to adopt a program to correct
cited anomalies. Further, DSC stated that it has recognized that strong supervisory attention is necessary
for institutions with high CRE and ADC concentrations and identified the guidance it has issued to help
institutions manage those concentrations. DSC also noted that the updated guidance should serve to
remind examiners to take appropriate actions when those risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov
                                 Contents
                                                                    Page
Background                                                             2

Causes of Failure and Material Loss                                    3
  ADC Loan Concentrations                                              3
  Board and Management Oversight                                       5

The FDIC’s Supervision of United Security                              9
  Supervisory History                                                 10
  Supervisory Response to Key Risks                                   11
  Implementation of PCA                                               15
  Supervisory Lessons Learned                                         16

Corporation Comments                                                  18

Appendices
  1. Objectives, Scope, and Methodology                               19
  2. Glossary of Terms                                                21
  3. Acronyms                                                         23
  4. Corporation Comments                                             24

Tables
   1. Financial Information for United Security, 2005 to 2009          2
   2. United Security’s ADC Concentrations Compared to Peer Group      4
   3. United Security’s Adversely Classified Assets and ALLL,          7
      2004 to 2009
   4. United Security’s Examination History, 2004 to 2009             10
   5. United Security’s Offsite Monitoring, September 2007 to         11
      September 2008

Figure
   Composition of United Security’s Loan Portfolio, 2003 to 2009       3
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           May 20, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of United Security Bank, Sparta,
                                                Georgia (Report No. MLR-10-035)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
United Security Bank (United Security), Sparta, Georgia. The Georgia Department of
Banking and Finance (DBF) closed United Security on November 6, 2009 and named the
FDIC as receiver. On November 20, 2009, the FDIC notified the OIG that United
Security's total assets at closing were $153.7 million and the estimated loss to the Deposit
Insurance Fund (DIF) was $57.3 million. As of May 14, 2010, the estimated loss to the
DIF had increased to $64.9 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of United
Security’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of United Security, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of United
Security’s failure and the FDIC’s efforts to ensure that the Board of Directors (Board)
and management operated the institution in a safe and sound manner. The report does not
contain formal recommendations. Instead, as major causes, trends, and common
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
characteristics of financial institution failures are identified in our material loss reviews,
we will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of DSC’s supervision
program and make recommendations, as warranted.3 Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of key terms and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background

United Security was a state-chartered nonmember bank that was established on
September 12, 1932. The bank was a full-service community bank headquartered in
Sparta, Georgia, a small rural town located 105 miles east of Atlanta in central Georgia
and the only incorporated municipality in Hancock County. Faced with declining loan
demand in the Sparta market, the bank decided to expand and opened a branch office in
Woodstock, Georgia (Woodstock branch) in July 2002 to serve Cherokee, Cobb, and
Fulton counties, which are part of the Atlanta metropolitan area. The Woodstock branch
operated under the trade name, The Bank of Woodstock, a Division of United Security
Bank. After the addition of the Woodstock branch, the bank’s lending focused on
commercial real estate (CRE), specifically, acquisition, development, and construction
(ADC), including out-of-state loan participations. Table 1 provides details on United
Security’s financial condition as of September 30, 2009 and for the 4 preceding calendar
years.

Table 1: Financial Information for United Security, 2005 to 2009
000)Financial Measure            Sep-2009       Dec-2008        Dec-2007       Dec-2006       Dec-2005
Total Assets ($000s)              153,639        153,718        136,457        129,867         113,957
Total Loans ($000s)               109,354        119,960        116,212        112,332         94,596
Total Deposits ($000s)            149,616        137,582        117,326        108,270         101,911
Net Income ($000s) (Loss)         (7,007)         (730)           762           3,166           2,260
Source: Uniform Bank Performance Reports (UBPR) for United Security.

United Security was wholly-owned by United Security Bancshares, Inc. (USBI),4
Woodstock, Georgia, a non-complex, one-bank holding company. USBI was 100 percent
family-owned. Initially, USBI was a source of strength to the bank and demonstrated an
ability to support the bank’s growth. However, as the bank’s financial condition
weakened, the holding company could offer little financial support.




3
  For example, in May 2010, the FDIC OIG’s Office of Evaluations initiated a review of the role and
federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and
section 39, Safety and Soundness Standards) in the banking crisis.
4
  USBI also had a small stock investment related to a Florida bank.


                                                    2
Causes of Failure and Material Loss
United Security failed because of loan concentrations in CRE, particularly ADC, that
were a result of the Board and management’s decision to expand its operations outside
the rural community of Sparta into the Atlanta metropolitan area. The Board and
management, largely dominated by one individual, pursued a growth strategy without
establishing a sound internal control system to support this strategy. Although initially
profitable, United Security’s ADC concentrations, absent adequate underwriting and
credit administration practices, created risks the bank was ill-equipped to manage.
Further, the bank’s ADC concentrations and inadequate underwriting and credit
administration practices materially increased the bank’s vulnerability to losses when the
real estate market significantly declined in the Atlanta metropolitan area. DBF closed
United Security after determining the bank was not viable due to deteriorating asset
quality, poor earnings, and eroding capital.

ADC Loan Concentrations

After the Woodstock branch opened, United Security’s total assets increased from
approximately $31 million as of December 31, 2002, to approximately $154 million by
September 30, 2009, with much of the growth centered in ADC lending. The use of
potentially volatile funding sources to fund this growth weakened the bank’s liquidity
position as the bank’s financial condition deteriorated. In addition to loans it originated,
United Security’s portfolio and adversely classified assets included a number of out-of-
area loan participations. Further, the 2008 examination report questioned whether the
lending staff had the expertise to analyze the out-of-area participations. The figure below
illustrates the general composition and growth of United Security’s loan portfolio from
2003 to 2009.

Composition of United Security’s Portfolio, 2003 to 2009
                                                                                         $115   $120
                                                                               $112                      $110
                                       $120       All Other Loans
                                                  Other CRE Loans
                                                                    $95
                                       $100       ADC Loans
                                                                                $34      $39    $49

                                                                                                        $53
 Gross Loans and Leases




                                        $80
                                                                    $41
                          (Millions)




                                                          $54                            $30
                                        $60                                                     $32
                                                                                $47
                                                $38
                                                            $23
                                        $40                         $31                                 $37

                                                  $22
                                                            $18                          $46
                                        $20                                                     $39
                                                                                $31
                                                  $9                $23                                 $20
                                                            $13
                                                  $7
                                         $0
                                              Dec 2003 Dec-2004 Dec-2005 Dec-2006 Dec-2007 Dec-2008 Sep-2009
                                                                          Period Ended



Source: UBPRs and Call Reports for United Security.




                                                                                  3
In December 2006, Federal banking regulatory agencies issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) that reinforces existing regulations and guidelines for real estate lending
and safety and soundness.5 The Joint Guidance points out that there are substantial risks
posed by CRE concentrations, especially ADC concentrations. Such risks include
unanticipated earnings and capital volatility during a sustained downturn in the real estate
market.

Further, the December 2006 guidance defines institutions with significant CRE
concentrations as those reporting loans for construction, land and development, and other
land (i.e., ADC) representing 100 percent or more of total capital; or institutions reporting
total CRE loans representing 300 percent or more of total capital, where the outstanding
balance of CRE has increased by 50 percent or more during the prior 36 months. Due to
the risks associated with CRE and ADC lending, regulators consider institutions with
significant CRE and ADC concentrations to be of greater supervisory concern. United
Security’s ADC concentrations significantly exceeded the criteria established in the
guidance as well as peer group6 levels, as illustrated in Table 2.

Table 2: United Security’s ADC Concentrations Compared to Peer Group
                                     ADC Loans as a                                  ADC Loans as a
    Period Ending             Percentage of Total Capital                 Percentage of Average Gross Loans
                          United Security     Peer Group                   United Security      Peer Group
Dec. 31, 2002                  60.57              11.61                          5.56               1.69
Dec. 31, 2003                  148.48             10.89                         13.22               1.65
Dec. 31, 2004                  233.76             15.25                         23.09               2.45
Dec. 31, 2005                  270.82             26.73                         23.88               4.01
Dec. 31, 2006                  286.90             35.60                         26.61               5.28
Dec. 31, 2007                  434.10             39.87                         31.44               5.95
Dec. 31, 2008                  374.15             37.11                         34.37               6.08
Sep. 30, 2009                 513.82*             26.55                         25.61               5.21
Source: UBPRs for United Security.
*The increase in risk exposure from ADC loans in 2009 was due primarily to the decline in the bank’s capital
level.

According to information provided by FDIC officials, the decline in the housing market
in the Atlanta metropolitan area began in the third quarter of 2006 and began to affect the
performance of banks in this area, including United Security, in the second half of 2007.
The overall condition of the bank was considered satisfactory until the 2008 examination,
which was based on 2007 year-end financial information. Specifically, in that
examination, the adversely classified items coverage ratio had increased from 44 percent
in the prior examination, to 165 percent. This ratio is a measure of the asset risk and the

5
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
6
  Institutions are assigned to 1 to 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. United Security’s peer group included
institutions with assets between $100 million and $300 million in a non-metro area with two or fewer full-
service offices.


                                                     4
ability of capital to protect against that risk. A lower ratio is desirable because a higher
ratio indicates exposure to poor-quality assets and less ability for the bank’s capital to
absorb any losses associated with those assets. By the 2009 examination, the bank’s
ADC portfolio accounted for 79 percent of the approximately $17.8 million in adversely
classified loans. Also, 97 percent of the other real estate owned portfolio7 was ADC-
related.

Board and Management Oversight

The DSC Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board of Directors
and executive officers, is perhaps the single most important element in the successful
operation of a bank. According to the Examination Manual, the Board has overall
responsibility and authority for formulating sound policies and objectives for the bank
and for effectively supervising the institution’s affairs. The continuing health, viability,
and vigor of the bank are dependent upon an interested, informed, and vigilant board of
directors.

The establishment of the Woodstock branch represented a strategic shift that provided the
bank with an opportunity to increase its loan portfolio, which had been declining due to
low loan demand in the Sparta market. However, United Security’s Board and
management failed to establish an adequate internal control system, including risk
management practices commensurate with the size and complexity of the loan portfolio
generated from the Woodstock branch.

Risk Management Practices

The Joint Guidance reiterates that concentrations in CRE lending, coupled with weak
loan underwriting and depressed CRE markets, contributed to significant credit losses in
the past. Earlier guidance on ADC lending8 emphasized that management’s ability to
identify, measure, monitor, and control portfolio risk through effective underwriting
policies, systems, and internal controls was crucial to a sound ADC lending program.

United Security failed to implement adequate credit risk management practices to handle
the institution’s expanded business plan or cope with the competitive market conditions
that prevailed in the Woodstock trade area. Poor economic conditions, coupled with
weaknesses in United Security Bank’s loan underwriting and credit administration,
contributed to the significant deterioration of the bank’s asset quality after 2007. As
further evidence of poor risk management practices, the bank was consistently cited for
violations of law and/or to be in contravention of supervisory policy, including policy
related to the Allowance for Loan Lease Losses (ALLL).



7
 Other real estate owned is property taken over by a bank through loan foreclosures.
8
 Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing
Risks Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                    5
Loan Underwriting and Credit Administration Practices. Examiners identified the
following weaknesses in the bank’s loan underwriting and credit administration practices:

   The 2008 examination report noted that United Security’s loan policy did not define
    or set parameters on industry concentrations. Additionally, examiners recommended
    that the loan policy should provide guidance to define acceptable levels of out-of-area
    loans. The loan policy was updated, but according to the 2009 examination report,
    the newly-established limits appeared to be too liberal. Further, the condition of the
    loan files, the number of technical exceptions found, and missing loan approvals
    illustrated that policy guidelines were not always followed.

   The 2008 examination report stated that the loan review and grading procedures were
    inadequate as evidenced by the number of classified loans that were not on the bank’s
    watch list.

   According to the 2008 and 2009 examination reports, loan files were disorganized
    and appeared to be incomplete since the loans were originated. The 2009
    examination noted documentation deficiencies in 79 percent of the loan files
    reviewed.

   According to the 2009 examination report, loan officers performed a limited loan
    analysis during initial underwriting, and the analysis often focused on the collateral
    rather than the borrower’s debt service ability and liquidity. Updated financial
    information on borrowers was rarely obtained, and complex relationships did not
    include global cash flow analyses that would consider the entire lending relationship,
    including outstanding obligations to other institutions.

In addition, according to the 2008 and 2009 examination reports, examiners found that
the loan files for participations did not contain sufficient analysis. According to the
Examination Manual, institutions purchasing participations must make a thorough,
independent evaluation of the transaction and risks involved before committing any
funds. Institutions should also apply the same standard of prudence, credit assessment,
approval criteria, and “in-house” limits that would be employed if the purchasing
organization were originating the loan.

Further, United Security did not perform market analysis for the various geographic
markets represented in its portfolio as called for in the Joint Guidance. This type of
analysis would have been useful had the bank performed portfolio-level stress tests or
sensitivity analyses to quantify the impact of the changing economic conditions on asset
quality, earnings, and capital.

Apparent Violations and Contraventions of Interagency Policy Statements.
According to the Examination Manual, it is important for a financial institution’s Board
to ensure that bank management is cognizant of applicable laws and regulations, develops
a system to effect and monitor compliance and, when violations do occur, makes
corrections as quickly as possible. Although regulators viewed the Board and
management to be knowledgeable of banking activities, between 2006 and 2009, the


                                             6
FDIC and the DBF cited United Security for apparent violations of state and federal laws,
including violations related to the Bank Secrecy Act (BSA), state legal lending limits,
and appraisal requirements and/or contraventions of regulatory guidance. Examiners
found that management would correct cited violations but in a subsequent examination
would be cited for other apparent violations or other contraventions of regulatory
guidance. In a few instances, examiners noted repeat contraventions. The 2008
examination characterized the number of violations of law and regulations as being
excessive, reflecting poorly on management’s ability.

Allowance for Loan and Lease Losses. The December 2006 Interagency Policy
Statement on the Allowance for Loan and Lease Losses (ALLL Policy Statement)
reiterated key concepts and requirements related to generally accepted accounting
principles (GAAP)9 and existing supervisory guidance. According to the ALLL Policy
Statement, the ALLL represents one of the most significant estimates in an institution’s
financial statements and regulatory reports. An appropriate ALLL covers estimated
credit losses on individually evaluated loans that are determined to be impaired as well as
credit losses inherent in the remainder of the portfolio.

The 2008 examination report stated that United Security’s ALLL methodology was not
consistent with GAAP and, as a result, an additional provision was required.
Management subsequently worked with the external auditors to prepare an ALLL
methodology that conformed to accounting standards. Although examiners found the
ALLL methodology to be satisfactory during the 2009 examination, reserve levels were
inappropriate because problem loans were not being identified in a timely manner.
Further, a visitation in 2009 found the bank’s methodology once again to be flawed,
resulting in an underfunded ALLL. Table 3 shows the ALLL amounts computed by
United Security compared to the amounts calculated by examiners.

Table 3: United Security’s Adversely Classified Assets and ALLL, 2004 to 2009
                                                Asset Quality
                                           (Dollars in Thousands)
                     Examiner Adversely Classified Asset Amounts                 ALLL Amounts

                                                                  Total                   Increase in
                                                                               ALLL
    Examination                                                                              ALLL
                                                                Adversely    Computed
       Date          Substandard      Doubtful       Loss                                 Computed
                                                                Classified   by United
                                                                                              by
                                                                  Items       Security
                                                                                          Examiners
     08/19/2004                $499           $0         $5           $504        $459             $0
     03/06/2006                $597          $35        $79           $711        $938             $0
     03/05/2007              $4,581           $6      $164          $4,751       $1,112            $0
     04/28/2008             $19,254         $423      $191         $19,868       $1,192        $1,550
     05/11/2009             $29,040           $0     $3,753        $32,793       $1,227        $3,130
    Source: Reports of Examination (ROE) for United Security.



9
 Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies and
FAS No. 114, Accounting by Creditors for Impairment of a Loan.


                                                      7
Influence of a Dominant Official

Examiners attributed the lack of proper Board and management oversight to one
individual who had a controlling interest in the bank since 1978, led the Board, and also
functioned as a senior bank officer. Prior to 2008, this individual also effectively served
as the bank’s senior credit officer. The 2008 examination criticized the bank for an
advertisement in a local newspaper that implied that this individual was the lone member
of the bank’s loan committee.

The Examination Manual characterizes this type of bank wherein the institution’s
principal officer and stockholder dominates virtually all phases of the bank’s operations
as a “One Man Bank”. According to the Examination Manual, there are at least two
dangers inherent in a “One Man Bank” situation: (1) the incapacitation of the dominant
official may deprive the bank of competent management and (2) problem situations
resulting from mismanagement can be more difficult to solve through normal supervisory
efforts because the bank’s problems are often attributed to the one individual that
dominates the bank.

This individual garnered Board support because the other Board members included a
family member and two long-standing business associates, all of whom served as officers
in the bank. The two outside directors were from the Sparta area and had served on the
bank’s Board for a number of years. The following summarizes key issues related to
United Security’s Board and management structure that were identified by examiners
beginning in 2008 and by a consultant hired by the bank to perform an independent
assessment of Board and management in response to 2008 supervisory concerns:

      United Security’s Board was not sufficiently independent and was inadequate
       because of the limited number of outside independent directors. A small minority
       of outside directors limited perspective and objectivity when overseeing the
       bank’s operations and evaluating management recommendations. In response to
       the independent assessment report and recommendations made in the 2008
       examination report, the Board sought to recruit additional outside directors who
       were more knowledgeable of the Woodstock market, but its efforts were
       unsuccessful due to the weak condition of the bank at that time.

      The independent assessment report also noted that the Board’s structure and
       composition limited the bank’s ability to have Board-level committees of
       sufficient size to operate independently of management. In that regard, the 2008
       examination report stated that the objectivity was removed from the loan approval
       process because the Loan Committee was comprised of bank officers responsible
       for both originating and approving loans.

      Further, the outside directors, while knowledgeable of the Sparta market, were not
       necessarily sufficiently prepared to oversee the activities of the Woodstock
       branch. As noted in the independent assessment report, an ongoing director
       education program was imperative for all directors but more so for outside



                                             8
       directors to ensure they stayed abreast of laws, rules, and regulations as well as
       market conditions in the bank’s overall operating environment.

Notably, the dominant official at United Security was characterized by the FDIC as an
experienced community banking executive who had previously served in a similar
capacity in another bank of comparable size. However, FDIC officials stated that it
became apparent that this individual, the management team, and other directors lacked
the experience and expertise needed to manage the bank as the size and complexity of the
portfolio increased, especially once the real estate market began to decline. FDIC
officials eventually concluded that the Board and management were slow to react to the
changing market because they were either incapable or reluctant to do so.


The FDIC’s Supervision of United Security
Our review focused on FDIC and DBF supervisory oversight of United Security between
2004 and 2009. The FDIC and the DBF conducted timely and regular examinations of
United Security and monitored its condition through the use of offsite monitoring
mechanisms. Through its supervisory efforts, the FDIC and the DBF identified risks in
United Security’s operations and brought these to the attention of the bank’s Board and
management through examination reports and other correspondence. Such risks included
the bank’s significant concentrations in CRE and ADC loans and poor Board and
management oversight of key banking functions. Enforcement actions were taken in
2006 and 2008; however, United Security’s actions in response to the 2008 enforcement
action were inadequate and the financial condition of the bank became critically
deficient.

In hindsight, United Security’s expansion into the Atlanta metropolitan area, which
altered the bank’s risk profile, and the presence of a dominant official should have
elevated supervisory concerns about the sufficiency of the bank’s internal control system
beginning as early as 2002. Further, the pursuit of an enforcement action in 2007 may
have been appropriate, given examiners’ continued concerns about management and the
significant deterioration in asset quality since the prior examination. We recognize that
decisions regarding enforcement actions involve judgment based on information known
at the time. In this case, the FDIC did consider taking an enforcement action but
concluded that an action was not necessary based on written commitments from the
Board to address deficiencies, the bank’s overall satisfactory regulatory history, its
satisfactory financial performance over an extended period of time, and an expected
capital infusion. Further, FDIC officials stated that the depth of the economic downturn
that was a factor in the rapid deterioration of United Security’s loan portfolio was not
evident at the time of the 2007 examination. However, in our view, the FDIC should
have been more skeptical of the Board and management’s ability to adequately address
the deficiencies because, prior to 2002, the bank had been operating in a vastly different
market.




                                             9
Supervisory History

The FDIC and the DBF conducted five examinations and one visitation of United
Security between August 2004 and the bank’s failure. Table 4 summarizes key
supervisory information.

Table 4: United Security’s Examination History, 2004 to 2009
                                              Supervisory                        Apparent Violation of
   Start         As of                          Ratings        Supervisory       Law or Contravention
                                Agency         (UFIRS)*                           of Policy Reported
    Date          Date                                            Action
 08/19/2004    06/30/2004        FDIC            211122/1           N/A                     N/A
 03/06/2006    12/31/2005        State           213122/2       Bank Board                   
                                                                 Resolution
                                                                   (BBR)
 03/05/2007    12/31/2006        FDIC            223122/2           N/A                      
 04/28/2008    12/31/2007        State           344333/4         Cease &                    
                                                                Desist Order
                                                                  (C&D)
 05/11/2009    03/31/2009    FDIC/State**        555555/5           C&D                      
                                                                (Continued)
  Source: ROEs for United Security.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS)
to evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital
adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to
market risk. Each component, and an overall composite score, is assigned a rating of 1 through 5, with
1 having the least regulatory concern and 5 having the greatest concern.
**A visitation was conducted in October 2009 to assess the accuracy of the bank’s internally calculated
capital ratio and focused on transactions affecting capital after the May 2009 examination.

As shown in Table 5, in addition to the onsite examinations, United Security was flagged
once for offsite review based on September 30, 2007 Call Report data and four times
based on quarterly Call Report data in 2008. The offsite reviews identified increasing
risk levels and resulted in interim contact with the bank. According to FDIC officials,
acceleration of the onsite examination schedule was not warranted based on information
obtained through contact with bank officials or because of planned or ongoing onsite
examination activity.




                                                    10
Table 5: United Security’s Offsite Monitoring, September 2007 to September 2008
                Offsite
   Call         Review
 Report       Completion       Level         Risk
   Date           Date        of Risk       Trend                           Action Taken
09/30/2007     01/09/2008       Low       Increasing    Contacted bank management to discuss actions
                                                        being taken in response to apparent deterioration
                                                        in asset quality. The bank official contacted
                                                        reported that problem loans principally consisted
                                                        of two large participation loans and anticipated
                                                        resolution of the problem loan participations by
                                                        mid-2008. Further, bank management reported
                                                        that it had curtailed ADC lending, hired an
                                                        additional senior officer in the Woodstock branch
                                                        to assist in problem loan work-out, and had no
                                                        plans for substantial asset growth in 2008. Based
                                                        on information provided by management, a
                                                        $400,000 capital injection in November 2007, and
                                                        analysis of other financial data, the supervisory
                                                        plan was to maintain interim contact to monitor
                                                        the bank.
12/31/2007     04/01/2008     Medium      Increasing    Contacted bank management and determined that
                                                        the bank was taking appropriate actions to deal
                                                        with asset quality problems. Onsite examination
                                                        was scheduled to start on April 28, 2008.
                                                        Accordingly, supervisory plan was to maintain
                                                        interim contact to monitor the bank.
03/31/2008     07/03/2008       High      Increasing    No additional action taken because of ongoing
                                                        onsite examination by DBF. DBF indicated
                                                        CAMEL downgrades were likely because of the
                                                        high level of adversely classified items.
06/30/2008     10/07/2008       High      Increasing    No additional action warranted because a C&D
                                                        was being pursued by DBF.
09/30/2008     01/09/2009       High      Increasing    No action taken other than monitoring bank’s
                                                        C&D progress reports. A joint examination was
                                                        scheduled for the second quarter of 2009.
Source: DSC’s Virtual Supervisory Information on the Net (ViSION).

Supervisory Response to Key Risks

Although United Security was historically well-rated, in retrospect, certain key risks at
the bank may have warranted elevated supervisory concerns and a stronger supervisory
response.

2004 Supervisory Activities

United Security received a composite “1” CAMELS rating in the 2004 examination
report, meaning it was considered to be sound in every respect. Examiners viewed the
Board and management as capable of providing adequate oversight as evidenced by
United Security’s strong financial performance and reported no concentrations. The
examination report noted that management had hired a credit analyst in the Woodstock
branch to help ensure the adequacy of the credit function. With respect to the Board



                                                   11
structure, the examination report noted that the Board elected a relative of the dominant
official to the Board who was also serving as a bank officer at the Woodstock branch.

2006 Supervisory Activities

In 2006, the bank was downgraded to a composite “2” CAMELS rating based on
concerns about apparent violations of state and federal laws but was still considered to be
fundamentally sound with strong earnings and asset quality. As referenced earlier in this
report, the examination report stated that management was knowledgeable of banking
activities but was cited for numerous apparent violations related to BSA, state legal
lending limits, and appraisal requirements. Consequently, examiners assigned a “3”
rating to the management component. The examination report recommended that the
Board adopt a resolution for corrective action to address:

      the apparent violations of legal lending limits,
      BSA training,
      resource needs at the Woodstock branch to provide for sufficient personnel to
       effectively coordinate and monitor compliance with the BSA,
      policies and procedures to monitor transactions for suspicious activity, and
      policies and procedures for the wire transfer function.

The Board adopted a BBR on May 23, 2006 to correct the violations and deficiencies
noted and provided quarterly progress reports to the DBF and the FDIC.

The examination report also noted that the bank had experienced asset growth rates of
70 percent in 2005 and 36 percent in 2004 and that the funded total of ADC lending
represented approximately 304 percent of Tier 1 Capital. Despite the bank’s growth, no
changes to management or the Board had taken place and the report did not discuss the
presence of a dominant official other than to describe the ownership structure of the
holding company. The bank’s policies and procedures were found to adequately address
credit administration and underwriting. In addition, examiners found United Security’s
methodology and ALLL level to be adequate for the bank’s needs.

2007 Supervisory Activities

Based on its 2007 examination, the FDIC concluded that the overall condition of the bank
was satisfactory – again, earnings were strong and capital remained satisfactory.
However, the numerous management-related deficiencies identified in the report were a
source of concern and were reflected in the management component rating remaining a
“3”. Specifically, although management corrected most of the deficiencies identified in
the 2006 examination, examiners identified additional violations and deficiencies
requiring the Board’s and management’s attention. The report also recommended that
management seek ways to improve its credit administration and underwriting procedures,
including implementing a loan review program and enhancing due diligence on loan
participations purchased. Further, examiners found the internal audit program to be
inadequate and recommended expanding internal audit procedures, strengthening internal
controls, and correcting weaknesses identified in United Security’s audit reports.


                                            12
The 2007 examination reflected substantial deterioration in United Security’s asset
quality since the prior examination as adversely classified assets increased from
8.24 percent to 43.84 percent. Nonetheless, the examination report stated management
adequately monitored the ADC concentration and the ALLL appeared to be appropriate
for the identified risks in the portfolio. The asset quality component rating was
downgraded from a “1” to a “2”.

Examiners recommended that the 2006 BBR be terminated because management had
substantially complied with the provisions. According to the 2007 examination report,
the FDIC considered the issuance of a revised BBR given the lack of improvement in the
composite CAMELS rating, the downgrade in the asset quality component, and the
additional deficiencies noted in the examination. However, the FDIC decided not to
pursue this action based on:

      the bank’s satisfactory financial performance over an extended period of time,
      documented commitments received from the Board and management,
      the bank’s overall satisfactory regulatory history, and
      expectations of an additional capital infusion.

USBI did subsequently inject $2 million of capital in June 2008, but as discussed later in
this report, this step failed to improve the bank’s declining capital position. Although the
FDIC decided against requiring a BBR, the Corporation’s transmittal letter to the Board
accompanying the examination report did state that management and Board oversight
was less than satisfactory in a number of key areas and highlighted matters requiring the
Board’s attention. Further, the letter requested that the Board provide a written response
to the FDIC within 30 days of the next regularly scheduled Board meeting, including a
detailed discussion of plans for reducing adversely classified loans. The Board later
submitted a written response to the FDIC as required.

2008 Supervisory Activities

The DBF’s 2008 examination found the overall condition of the bank to be unsatisfactory
and downgraded the composite CAMELS rating from a “2” to a “4” because the bank
was exhibiting unsafe and unsound practices. Asset quality had deteriorated substantially
since the last onsite examination. The examination reported that adversely classified
assets had increased at an alarming rate and cited numerous credit underwriting and loan
administration deficiencies. The asset quality component was also downgraded from a
“2” to a “4”. In addition, the number of violations of laws and regulations, including
BSA-related violations, was found to be excessive and considered to reflect poorly on
management, and resulted in the management component also being downgraded to a
“4”.

The examination report stated that United Security’s present management team –
unchanged from the prior examination – was unsatisfactory and the Board’s oversight
was inadequate. The report stated that oversight of the institution was lacking based on
United Security’s inadequate internal audit program, loan review and grading system, and


                                            13
ADC concentration guidelines. Further, the examination report stated the present
management team did not have the capability to correct criticisms. For the first time, this
examination report explicitly stated that one official was a dominant force in management
and policy formulation and unwilling to accept the reality of the bank’s severe problems.

Based on the results of the examination, the DBF, in consultation with the FDIC, issued a
C&D to compel the bank to stop its unsafe and unsound practices and adopt a program of
corrective action. Among other things, the C&D, effective on November 20, 2008,
required the bank to:

      Increase the participation of the Board in the affairs of the bank, including a third-
       party assessment of the qualifications of the current members of the Board to
       determine whether individual Board members had the abilities needed to return
       the bank to a safe and sound condition.
      Ensure management had the qualifications and experience commensurate with his
       or her duties.
      Restore and maintain capital levels in such an amount as to equal or exceed
       8 percent of total assets and develop a capital plan.
      Address classified assets, including charge-off or collection of all assets or
       portions of assets classified as loss or doubtful.
      Cease extensions of credit to certain borrowers.
      Review the adequacy of the ALLL.
      Address specific issues outlined in the order pertaining to lending practices.
      Adopt an effective system of loan review and grading to be conducted quarterly.
      Formulate and implement a written plan to improve and sustain earnings.
      Address issues outlined in the order pertaining to the bank’s fund management
       practices, which included revising the bank’s liquidity contingency plan.
      Prepare and submit a written strategic business plan.
      Cease use of the terms “One Man Loan Committee” in any advertisements.
      Eliminate and/or correct all violations of law and regulation outlined in the
       examination report.
      Restrict payment of cash dividends or bonuses without the prior written consent
       of the supervisory authorities.

The bank was also required to provide quarterly progress reports to the FDIC and the
DBF and did so.

2009 Supervisory Activities

The 2009 joint examination found that United Security’s overall performance had
continued to deteriorate, and, accordingly, the bank was downgraded to a composite “5”
CAMELS rating. Near-term failure was considered likely based on the condition of the
bank. The examination report stated that weak economic conditions and poor Board and
senior management oversight exacerbated the risk in the bank’s ADC portfolio, resulting
in high levels of adversely classified assets, large operating losses, rapid capital erosion,
and tenuous liquidity. In addition, the report stated that oversight of the bank was
critically deficient and that management had not demonstrated the ability to correct


                                             14
problems noted in previous examinations or to implement appropriate risk management
practices. Further, the examination found that the Board had not fully complied with the
provisions of the C&D despite actions taken by the bank.

With regard to the involvement of the Board in the bank’s affairs, the examination report
stated that, given a dominant influence in bank management and a Board with only two
outside directors, there was an insufficient degree of independence to properly administer
bank policy and supervise management. Additionally, the examination report criticized
aspects of the bank’s independent third-party management assessment because the
assessment did not thoroughly evaluate individuals’ capabilities to manage given the
current condition of the bank. The independent assessment report only recommended the
need for additional outside directors and development of a formal succession plan. The
FDIC considered recommending amendments to the C&D but the bank failed before that
action was finalized.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary actions pertaining to all institutions. The section requires
regulators to take progressively more severe actions, known as “prompt corrective
actions,” as an institution’s capital levels deteriorate. The purpose of section 38 is to
resolve problems of insured depository institutions at the least possible long-term cost to
the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant
to section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for
the submission and review of capital restoration plans and for the issuance of directives
and orders pursuant to section 38. Based on the supervisory actions taken with respect to
United Security, the FDIC properly implemented applicable PCA provisions of section
38.

Specifically, United Security was considered Well Capitalized until the April 2008 DBF
examination. This examination resulted in an additional ALLL provision to year-end
2007 financial data, which reduced United Security’s capital category to Adequately
Capitalized despite the $2 million capital injection by USBI on June 30, 2008. The
examination report noted that the bank, pursuant to section 29 of the FDI Act and section
337.6 of the FDIC Rules and Regulations, was subject to certain regulatory restrictions
related to brokered deposits. After the 2008 examination was completed, United Security
submitted a $4 million funding application under the U.S. Department of the Treasury’s
Troubled Asset Relief Program. The bank subsequently withdrew its application on
February 17, 2009.

The FDIC sent United Security the following PCA notification letters:

      On November 17, 2008, the FDIC notified the bank that it remained Adequately
       Capitalized. The letter noted that the bank had been “technically” Adequately
       Capitalized since December 31, 2007 due to restatement of prior Call Reports



                                            15
       made during the DBF’s 2008 examination. The notification letter reiterated the
       restrictions related to brokered deposits pursuant to section 29 of the FDI Act.

      On February 6, 2009, the FDIC notified United Security that it was again
       Adequately Capitalized based on the bank’s December 31, 2008 Call Report.

      On August 7, 2009, the FDIC notified the bank that it was Significantly
       Undercapitalized as a result of the adjustments made to the ALLL during the May
       2009 joint examination.

      On November 3, 2009, the FDIC notified the bank that it was Critically
       Undercapitalized based on a joint visitation conducted in October 2009 to assess
       the accuracy of the Bank’s internally calculated capital ratio. The notification
       letter outlined the restrictions associated with this capital category, including
       restrictions on asset growth, dividends, other capital distributions, and
       management fees. In addition, the bank was informed that it was required to file a
       written capital restoration plan.

As previously discussed in this report, the November 28, 2008 C&D included capital-
related provisions, including a requirement that the bank adopt a capital plan to meet
minimum risk-based capital requirements for a Well Capitalized institution. United
Security never submitted an acceptable capital plan in response to the C&D or in
response to the FDIC’s written notification of the bank’s Critically Undercapitalized
status. The capital plan submitted in response to the C&D stated that the bank would
strive to be Well Capitalized at all times and outlined a number of actions it could take to
raise capital levels, including selling stock and loan participations in order to decrease
assets; however, none of those planned actions materialized. The two principal
stockholders indicated during the 2009 examination that they did not have funds available
to purchase additional stock. After falling to Critically Undercapitalized, United
Security started but did not complete another capital restoration plan because it
determined that options for raising additional capital were not viable and the bank was
closed on November 6, 2009.

Supervisory Lessons Learned

In hindsight, United Security’s 2002 change in business strategy, which ultimately altered
the bank’s risk profile, and the existence of the “One Man Bank” scenario should have
elevated supervisory concerns about the sufficiency of the bank’s internal control system.
As institutions move into new markets and take on new types of financial risks, it is
important that appropriate policies and procedures be put into place to measure and
manage these risks. According to the FDIC’s Pocket Guide for Directors, a financial
institution’s Board should adopt operating policies to achieve the bank’s objectives in a
legal and sound manner and the policies should be monitored to ensure the policies
conform with changes in laws and regulations, economic conditions, and the institution’s
circumstances.




                                            16
With respect to the “One Man Bank” situation, the Examination Manual emphasizes the
need for examiners to review the risk profile and control environment of a bank that is
controlled by a dominant official and to consider and assess whether potential controls
are in place to mitigate the risk posed by the dominant official. When weaknesses are
evident, as in United Security’s case, the Examination Manual states that internal policies
and practices should be strengthened in order to mitigate the level of risk presented by the
existence of such a dominant official. Examiners can consider pursuit of supervisory
action to ensure appropriate controls are in place.

In addition, the following factors could have supported the pursuit of a supervisory action
in 2007, notwithstanding the facts considered by the FDIC at the time, as previously
discussed in this report:

      United Security’s expansion into the Atlanta metropolitan area represented a
       change in business strategy and increased the risk profile of the bank because of
       the shift from a rural market to the competitive Atlanta metropolitan market.

      The bank had ADC concentrations and weak risk management practices. As
       previously referenced in this report, according to the Joint Guidance,
       concentrations coupled with weak loan underwriting and depressed markets have
       contributed to significant credit losses in the past. We recognize that the real
       estate market was just beginning to soften in 2007; however, the risk profile of the
       bank warranted a more forward-looking supervisory approach in evaluating the
       bank’s ability to respond to declining market conditions, irrespective of its
       willingness to address problems.

Although the FDIC required the bank to outline actions taken in response to the
recommendations made in the 2007 report, an enforcement action could have served to
convey the significance of supervisory concerns, especially to the outside Board
members. Further, an enforcement action would have required the Board to formally
commit to a plan to strengthen risk management weaknesses and provided a means for
the FDIC and DBF to better monitor the bank’s efforts to correct deficiencies at a critical
time.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from recent failures. Of note, the FDIC recently completed a
training initiative for its entire supervisory workforce that emphasizes the need to assess a
bank’s risk profile using forward-looking supervision. The training addressed the need
for examiners to consider management practices as well as the current financial
performance or trends in assigning ratings as allowable under existing examination
guidance. The training also covered methods for communicating weak management
practices to the Board and management and tools being developed to monitor corrective
actions.




                                             17
Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
May 18, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of United Security’s failure. With regard to our
assessment of the FDIC’s supervision of United Security, DSC reiterated the bank’s
supervisory history described in our report. In addition, DSC’s response outlined the
supervisory actions taken to address the risks that examiners identified during that period,
including component and composite rating downgrades and the enforcement actions
taken in 2006 and 2008 to compel the bank to adopt a program to correct cited anomalies.
Further, DSC stated that it has recognized that strong supervisory attention is necessary
for institutions with high CRE and ADC concentrations and identified the guidance it has
issued to help institutions manage those concentrations. DSC also noted that the updated
guidance should serve to remind examiners to take appropriate actions when those risks
are imprudently managed.




                                            18
                                                                               Appendix 1
                    Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from February to May 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit focused on United Security’s operations from 2004 until its failure
on November 6, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period. Given the significance of the opening
of the Woodstock branch we also reviewed available files concerning the branch
application and selected bank data to chart the growth of the bank after the branch was
opened in 2002.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination and visitation reports prepared by FDIC and DBF
         examiners from 2004 to 2009 and selected examination work papers.

        Reviewed the following:

         - Bank data contained in UBPRs and Call Reports.

         - Correspondence files made available from DSC’s Atlanta Regional and
           Atlanta Field Offices.

         - Reports prepared by the Division of Resolutions and Receiverships and DSC
           related to this closure.

         - DSC’s ViSION Modules, including Supervisory Tracking & Reporting.


                                             19
                                                                              Appendix 1
                     Objectives, Scope, and Methodology



         -   Reports from the bank’s external auditors and a consultant’s report on
             Director and Management Assessment.

         -   Pertinent DSC policies and procedures.

        Interviewed FDIC and State Examiners who participated in the various reports of
         examination of United Security.

        Interviewed FDIC Regional Office management and DBF officials responsible for
         supervisory oversight.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand United Security’s management controls pertaining
to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             20
                                                                                  Appendix 2
                               Glossary of Terms



Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards
                    of directors are responsible for ensuring that their institutions have
                    controls in place to consistently determine the allowance in accordance
                    with the institutions' stated policies and procedures, generally accepted
                    accounting principles, and supervisory guidance.
Bank Board          A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)    financial institution’s Board of Directors (often at the request of the
                    FDIC) directing the institution’s personnel to take corrective action
                    regarding specific noted deficiencies. A BBR may also be used as a tool
                    to strengthen and monitor the institution’s progress with regard to a
                    particular component rating or activity.
Bank Secrecy Act    Congress enacted BSA of 1970 to prevent banks and other financial
(BSA)               service providers from being used as intermediaries for, or to hide the
                    transfer or deposit of money derived from, criminal activity. The BSA
                    requires financial institutions to maintain appropriate records and to file
                    certain reports used in criminal, tax, or regulatory investigations or
                    proceedings.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.




                                             21
                                                                                 Appendix 2
                               Glossary of Terms



Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

Tier 1 (Core)       In general, this term is defined in Part 325 of the FDIC Rules and
Capital             Regulations, 12 C.F.R. section 325.2(v), as
                    The sum of:
                    • Common stockholder’s equity (common stock and related surplus,
                    undivided profits, disclosed capital reserves, foreign currency translation
                    adjustments, less net unrealized losses on available-for-sale securities
                    with readily determinable market values);
                    • Non-cumulative perpetual preferred stock; and
                    • Minority interest in consolidated subsidiaries;
                    Minus:
                    • Certain intangible assets;
                    • Identified losses;
                    • Investments in financial subsidiaries subject to section 12 C.F.R.
                      part 362; and
                    • Deferred tax assets in excess of the limit set forth in section 325.5(g).


Troubled Asset      TARP is a program of the United States Department of the Treasury to
Relief Program      purchase assets and equity from financial institutions to strengthen the
(TARP)              financial sector.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.




                                            22
                                                           Appendix 3
                        Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
BSA      Bank Secrecy Act
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CRE      Commercial Real Estate
DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System
USBI     United Security Bancshares, Inc.
ViSION   Virtual Supervisory Information on the Net




                              23
                                                                                      Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                         May 18, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         Draft Audit Report Entitled, Material Loss Review of United Security Bank, Sparta, GA
                 (Assignment No. 2010-015)

Pursuant to Section 38(k) of the Federal Deposit Insurance act (FDI Act), the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of United Security
Bank (United Security), Sparta, Georgia, which failed on November 6, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report
(Report) received on May 3, 2010.

The Report concludes that United Security failed due to the high concentration of commercial real
estate loans (CRE), particularly acquisition development and construction (ADC) loans that resulted
from the Board’s and management’s decision to expand operations outside the local rural community of
Sparta into the Atlanta metropolitan area. The report also notes that United Security failed to establish a
sound internal control system and adequate underwriting and credit administration practices in
conjunction with the expansion of CRE lending. This created risks that the bank was ill-equipped to
manage, thus increasing the bank’s vulnerability to losses when the real estate market declined in the
Atlanta metropolitan area. United Security was closed due to overall deterioration in its loan portfolio,
poor earnings and inadequate capital.

From 2004 to 2009, the FDIC and the Georgia Department of Bank and Finance (DBF) conducted 5
examinations, one visitation, and beginning in 2007, continuous off-site monitoring. During this period
the FDIC and DBF identified risks in United Security’s operations. As a result of the 2006 DBF
examination, the bank was downgraded to a composite “2” rating because of concerns about apparent
violations of state and federal laws. A Board Resolution to implement corrective actions was adopted.
The 2007 FDIC examination identified substantial deterioration in United Security’s asset quality, and
downgraded that component rating from a “1” to a “2”. Again in 2008, DBF downgraded United
Security to a composite “4” rating as a result of the banks unsatisfactory overall condition, unsafe and
unsound practices, and the alarming rate of increase in adversely classified loans. A cease and desist
order was issued to compel the bank to adopt a program to correct the cited anomalies.

DSC recognizes that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations, and has issued updated guidance reminding examiners to take appropriate action when
those risks are imprudently managed. DSC issued Interagency Guidance on CRE Monitoring in 2006 and
a Financial Institution Letter to banks on Managing Commercial Real Estate Concentrations in a
Challenging Environment in 2008 that recommended several risk management processes to help
institutions manage CRE and ADC concentrations. Thank you for the opportunity to review and comment
on the Report.



                                                    24
